                                                                             Report No. DODIG-2013-131




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 16, 2013




                     Army Requirement To Acquire
                     Individual Carbine Not Justified




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Army Requirement To Acquire Individual Carbine
                                       Not Justified



September 16, 2013                                     Finding Continued

Objective                                              Army (Acquisition, Logistics and Technology) that detailed our
                                                       concerns with IC product office officials obligating $420,000
We initiated this audit to determine whether           to award contracts to initiate the Phase III of the IC source
the Army justified its competition to acquire          selection process.
a new Individual Carbine (IC) weapon and
whether the Army was implementing an                   On March 29, 2013, the Assistant Secretary responded to our
effective acquisition strategy.                        memorandum. The Assistant Secretary stated that the Army
                                                       appreciated the opportunity to respond; however, while the Army

Finding                                                was assessing the DoD IG findings, the integrity and sensitive
                                                       nature of the IC source selection process did not allow the Army
The Army Deputy Chief of Staff, G-3/5/7, did           to address our findings in its response. The Assistant Secretary
not justify the requirement for a new carbine.         further stated the Army would not award Phase III contracts
This occurred because the Army Deputy Chief            until it adequately addressed our findings.
of Staff, G-3/5/7, did not follow the Small
Arms Capabilities Based Assessment findings
and recommendations, and inappropriately
                                                       Recommendations
approved and validated the requirements                The Assistant Secretary of the Army (Acquisition, Logistics and
document used to support the establishment             Technology) should terminate the Individual Carbine competition
of the individual carbine program. As a                and eliminate funding the Individual Carbine program. Also, the
result, the Army wasted about $14 million on           Army Deputy Chief of Staff, G-3/5/7, should validate the quantity
a competition to identify a source to supply           of M4 carbines needed. If the Army concludes that additional
new carbines it does not need. In addition,            M4 carbines are needed, then the Army should hold a
the Army plans to spend $2.52 billion over a           competition to acquire them. Furthermore, the Assistant Secretary
20-year life cycle to procure and maintain             of the Army (Financial Management and Comptroller) should
501,289 carbines that its own analysis                 reprogram the $382 million in procurement and research,
suggests can be delayed for another 10 years           development, test, and evaluation funding currently allocated
with no impact on readiness.                           to acquire carbines across the FY 2013 to FY 2018 Future Years
                                                       Defense Program, adjusted by validated M4 carbines needed.
We identified potential monetary benefits
of $2.52 billion, $382 million of funds to put
to better use ($375 million in procurement
                                                       Comments
funding and $7 million in research,                    Although the Assistant Secretary of the Army (Financial
development, test, and evaluation funding)             Management and Comptroller), the Assistant Secretary of the
and $2.14 billion in cost avoidance after              Army (Acquisition, Logistics and Technology), and the Army
FY 2018 if the program is terminated.                  Deputy Chief of Staff, G 3/5/7, did not state whether they agreed
                                                       or disagreed with our recommendations, their responses met
On December 28, 2012, we issued a quick reaction
                                                       the intent of our recommendations.
memorandum to the Assistant Secretary of the



Visit us on the web at www.dodig.mil                                       DODIG-2013-131 (Project No. D2012-D000AE-0196.000) │ i
                   Recommendations Table
                                                              Recommendations       No Additional
                                    Management                Requiring Comment   Comments Required
                    Assistant Secretary of the Army                                      3
                    (Financial Management and Comptroller)
                    Assistant Secretary of the Army                                      1
                    (Acquisition, Logistics and Technology)
                    Army Deputy Chief of Staff, G-3/5/7                                  2




ii │ DODIG-2013-131 (Project No. D2012-D000AE-0196.000)
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                             4800 MARK CENTER DRIVE
                          ALEXANDRIA, VIRGINIA 22350-1500



                                                                   September 16, 2013

MEMORANDUM FOR THE AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Army Requirement To Acquire Individual Carbine Not Justified
	        (Report No. DODIG-2013-131)

We are providing this report for your information and use. We determined the Army
did not justify the need for a new carbine, and as a result, wasted about $14 million on
a competition to identify a source to supply new carbines it does not need. In addition,
the Army plans to spend $2.52 billion over a 20-year life cycle to procure and maintain
501,289 carbines that its own analysis states can be delayed for another 10 years with
no impact to readiness. During the audit we identified potential monetary benefits
of $2.52 billion, $382 million of funds to put to better use and $2.14 billion in cost
avoidance after FY 2018 if the program is terminated. We considered management
comments on a draft of this report when preparing the final report. Comments from
the Assistant Secretary of the Army (Financial Management and Comptroller), the
Assistant Secretary of the Army (Acquisition, Logistics and Technology), and the Army
Deputy Chief of Staff, G-3/5/7, conformed to the requirements of DoD Directive 7650.3;
therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




	 Amy J. Frontz
	 Principal Assistant Inspector General
		 for Auditing




                                                                                       DODIG-2013-131 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Army Previously Concluded That the Introduction of New Carbine Without Significantly
                  Improved Performance Was Unacceptable____________________________________________________1
                  Army Executes Dual Path Strategy for Next Generation of Army Service Rifles_____________2
                  Program Management___________________________________________________________________________4
                  Review of Internal Controls_____________________________________________________________________5

                  Finding. Army Strategy To Acquire
                  Individual Carbines Not Supported_ ____________________________________6
                  Policy on Identifying and Validating Capability Requirements_______________________________6
                  Small Arms Capabilities Based Assessment Did Not Identify
                  the Need for a New Carbine_____________________________________________________________________7
                  Army Inappropriately Approved and Validated the Individual Carbine
                  Capability Development Document ____________________________________________________________8
                  Army Initiated Program To Acquire an Improved Carbine That Was Not Needed________ 10
                  Army Organizations Recommend Suspending the Individual Carbine
                  Competition and Source Selection Efforts ___________________________________________________ 11
                  Conclusion______________________________________________________________________________________ 14
                  Recommendations, Management Comments, and Our Response__________________________ 15

                  Appendixes
                  Appendix A. Scope and Methodology _ ______________________________________________________ 18
                      Prior Coverage on Individual Carbine_____________________________________________________ 19
                  Appendix B. M16 Rifle and M4 Carbine Family of Weapons_______________________________ 20
                  Appendix C. Timeline of Key Events_________________________________________________________ 22
                  Appendix D. Chronology, Key Events, and Activities________________________________________ 23
                  Appendix E. Quick Reaction Memorandum and Response_________________________________ 25
                  Appendix F. Summary of Potential Monetary Benefits_____________________________________ 32




iv │ DODIG-2013-131
Contents (cont’d)
Management Comments
Assistant Secretary of the Army (Financial Management and
Comptroller) Comments_______________________________________________________________________ 33
Assistant Secretary of the Army (Acquisition, Logistics and
Technology) Comments_ ______________________________________________________________________ 34
Army Deputy Chief of Staff, G-3/5/7, Comments____________________________________________ 35

Acronyms and Abbreviations______________________________________________ 36




                                                                                                  DODIG-2013-131 │ v
                                                                                            Introduction




Introduction
Objective
The audit objective was to evaluate the Army’s requirements and acquisition strategy
for improving the Individual Carbine (IC) weapon. Specifically, the audit evaluated
whether the Army justified its competition to acquire a new IC weapon and whether the
Army was implementing an effective acquisition strategy. See Appendix A for a discussion
of the audit scope and methodology and prior coverage.


Background
The IC program is an Acquisition Category II major system program that entered
the Engineering and Manufacturing Development phase of the acquisition process on
April 7, 2011. The IC program was designated as an Army Acquisition Executive special
interest program and placed on the Office of the Secretary of Defense, Director of
Operation Test and Evaluation Oversight List. As of May 2013, the Army had spent
about $14 million in research, development, test, and evaluation funds and plans to spend
an additional $2.52 billion to acquire, operate, and support 501,289 carbines over a
20-year life cycle.


Army Previously Concluded That the Introduction
of New Carbine Without Significantly Improved
Performance Was Unacceptable
Before 2008, the Army’s position was that it did not require a new carbine. As reported
in DoD IG Report No. D-2007-026, “Competition of the 5.56 Millimeter Carbine,”
November 22, 2006, the Program Executive Office (PEO) Soldier, through the U.S. Army
TACOM Life Cycle Management Command, prematurely released a presolicitation
notice for the competition of the 5.56-mm carbine before it contacted Colt, the original
equipment manufacturer, to determine whether it would lower unit prices on future
M4 carbine buys. In addition, the U.S. Army TACOM Life Cycle Management Command
did not evaluate whether the competition was justified or obtain approval from senior
Army leadership. During the audit, PEO Soldier completed a business case analysis to
determine whether a competition for the 5.56-mm carbine was justified. PEO Soldier
concluded that the best economic course of action was to sole-source its carbine
requirements to Colt for part of FY 2006 and then conduct a full and open competition
in FY 2007 that would include a requirement for a 15,000-round barrel.




                                                                                        DODIG-2013-131 │ 1
Introduction



                 On April 27, 2006, the Deputy Program Executive Officer Soldier briefed the
                 business case analysis results to the Assistant Secretary of the Army (Acquisition,
                 Logistics and Technology). The Assistant Secretary determined that the results of the
                 business case analysis “were not sufficiently discriminatory to justify competition.” In
                 addition, he directed PEO Soldier to negotiate further M4 carbine unit price reductions
                 with Colt and to sole-source with Colt to continue supplying soldiers with M4 carbines.
                 Furthermore, the Assistant Secretary stated that if Colt provides M4 carbines at a
                 “reasonable price to the Army, the Army will continue to purchase M4 carbines through
                 June 2009 or until the Joint Requirements Oversight Council approves a new requirement
                 for a carbine.”

                 On June 12, 2006, the Army Deputy Chief of Staff, G-3/5/7, issued a memorandum to
                 the Assistant Secretary of the Army (Acquisition, Logistics and Technology) that stated
                 the Army’s introduction of a new carbine design without significantly improved
                 performance was unacceptable and that the Army did not have a requirement for
                 higher performance on which to base a competition. Furthermore, the Army Deputy
                 Chief of Staff, G-3/5/7, stated that soliciting any requirement for a carbine capability,
                 involving potential schedule slippages, different operational characteristics, or
                 the inadvertent introduction of new parts and assemblies that may not be
                 fully interchangeable with the current M4 carbine design and stocked items, has
                 unacceptable risks.


                 Army Executes Dual Path Strategy for Next Generation
                 of Army Service Rifles
                 In October 2009, the Army devised a dual path strategy intended to improve its
                 inventory of service carbine weapons. As shown in Figure 1, the strategy comprised two
                 programs – the M4 Product Improvement program and the IC program (the latter being
                 the subject of this audit).




2 │ DODIG-2013-131
                                                                                                                           Introduction



Figure 1. The Army Carbine Dual Path Strategy




* Request for Proposal (RFP)


The dual path strategy continued the Army practice of upgrading the M4 carbine
while simultaneously challenging industry through a carbine competition to deliver an
entirely new weapon system capable of outperforming the M4.


M4 Product Improvement Program
One path of the strategy involves the M4 Product Improvement program. Since 1990, the
M4 weapon system has had more than 90 performance-enhancing changes. The main
purpose of the M4 Product Improvement program is to upgrade all Army M4 carbines
to the M4A1 configuration, which has a fully automatic capability, an ambidextrous
selector switch, and a heavier barrel that increases both the weapon’s sustained rate
of fire and barrel life.               A second phase will explore future improvements for the
carbine including delivery of enhanced ergonomics, reliability, durability, and zero
retention.1 See Appendix B for a figure showing the evolution of the M4 carbine and the
M16 family of weapons and additional information on the M4 carbine improvements.




	1	
      Zero retention is the ability to exchange optics without requiring the weapon to be re-zeroed or re-calibrated.




                                                                                                                        DODIG-2013-131 │ 3
Introduction



                 Army Used a Three-Phased Process for IC Competition
                 The other path in the strategy involves the IC program, which aims to challenge industry
                 to deliver an entirely new weapon system that can outperform the M4. Following the
                 approval of a new carbine requirement, the Secretary of the Army directed a full and
                 open competition of an IC that addresses current and future threats. The Army devised
                 a three-phased process to select the winner of the IC competition.

                               •	 Phase I - The Army evaluated companies that proposed to supply carbines
                                   to meet the desired attribute requirements.

                               •	 Phase II - Army testers fired hundreds of thousands of rounds through
                                   offerors’ test weapons to assess accuracy, reliability, and durability. The
                                   Army completed this phase in December 2012. The Army planned to award
                                   contracts to up to three offerors who would advance to Phase III.

                               •	 Phase III - Using the contracts issued, the Army planned to buy more
                                   weapons to conduct further testing on the three successful offerors’ weapons
                                   against key performance requirements. The Army also planned to perform
                                   limited user evaluations to obtain operational input to support the selection
                                   of the winning offeror.

                 At the completion of source selection, the Army plans to conduct a cost benefit analysis
                 to make an informed decision on whether to buy the carbine selected during the
                 IC competition as compared to the improved M4 carbine is in the Army’s best interest.
                 The total cost of the program is estimated at $2.532 billion for the acquisition of
                 501,289 carbines.


                 Program Management
                 The Assistant Secretary of the Army (Acquisition, Logistics and Technology) is the
                 Milestone Decision Authority for the IC program. PEO Soldier has oversight of the
                 carbine competition. Its mission is to develop, acquire, field and sustain affordable
                 integrated state of the art equipment to improve Soldier dominance in Army
                 operations today and in the future. Project Manager Soldier Weapons is responsible
                 for managing what Soldiers wear or carry into combat focusing on equipping soldiers
                 with world class weapon systems, ammunition, and related target acquisition and fire
                 control products. Product Manager Individual Weapons is the component of Project


                 	2	
                       The $2.53 billion consists of about $14 million in research, development, test, and evaluation funds already spent and an
                       additional $2.52 billion to acquire, operate, and support 501,289 carbines over a 20-year life cycle.




4 │ DODIG-2013-131
                                                                                             Introduction



Manager Soldier Weapons responsible for research and development of current and
future rifles, carbines, pistols, shotguns, grenade launchers, small arms ammunition,
and related target acquisition/fire control products, to include the IC program.
See Appendixes C and D for a detailed timeline of key IC program events and activities.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July  29, 2010, requires DoD organizations to implement a comprehensive system
of internal controls that provide reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness with the Army’s IC program quantity requirement. The organizations
involved in establishing the IC requirement did not maintain documentation to
show how the number of carbines required was determined and had not revised
the quantity of carbines that the Army planned to buy under the IC  program based
on planned changes in the Army force structure. None of the Army G-3/5/7, G-8,
and Maneuver Center of Excellence officials whom we contacted could identify
which Army organization was responsible for maintaining the documentation.
However, they all agreed that the IC  program requirements were derived from
the original M4 requirement and were carried forward to the IC program.
DODIG  Report  No.  2012‑121, issued on September  7, 2012, addressed Army
organizations not maintaining documentation to show how requirements were
derived. Therefore, we are not making an additional recommendation in this report.
We will provide a copy of the report to the senior official responsible for internal
controls in the Department of the Army.




                                                                                          DODIG-2013-131 │ 5
Finding




                 Finding
                 Army Strategy To Acquire Individual Carbines
                 Not Supported
                 The Army Deputy Chief of Staff, G-3/5/7, did not justify the requirement for a new
                 carbine. This occurred because the Army Deputy Chief of Staff, G-3/5/7:

                             •	 did not follow the Small Arms Capabilities Based Assessment findings and
                                 recommendations, and

                             •	 inappropriately approved and validated the requirements document used
                                 to support the establishment of the individual carbine program.

                 As a result, the Army wasted about $14 million on a competition to identify a source
                 to supply new carbines it does not need.                             In addition, the Army plans to spend
                 $2.52 billion over the life of the program to procure and maintain 501,289 carbines
                 that its own analysis suggests can be delayed for another 10 years with no impact
                 on readiness.



                 Policy on Identifying and Validating
                 Capability Requirements
                 Chairman of the Joint Chiefs of Staff Instruction 3170.01G, “Joint Capabilities Integration
                 and Development System (JCIDS),” March 1, 2009, stated the purpose of this instruction
                 is to establish the policies for the JCIDS.3 The JCIDS process is used to identify and assess
                 capability needs and associated performance criteria to be used as a basis for acquiring
                 the right capabilities. This process is initiated through the execution of the capabilities
                 based assessment (CBA).                   The objective of the CBA is to validate capability gaps
                 by identifying the mission, the capabilities required and associated operational
                 risks; assessing the viability of a nonmateriel and materiel solution; and providing a
                 potential recommendation.

                 JCIDS Manual, “Manual for the Operation of the Joint Capabilities Integration and
                 Development System,” February 2009,4 provides guidance on CBAs and the development
                 of key performance parameters. The CBA becomes the basis for validating capability


                 	3	
                     This instruction was updated and replaced by Chairman of the Joint Chiefs of Staff Instruction 3170.01H, “Joint Capabilities
                     Integration and Development System,” January 10, 2012.
                 	4	
                     The manual was updated and replaced by JCIDS Manual, “Manual for the Operation of the Joint Capabilities Integration
                     and Development System,” January 31, 2010.



6 │ DODIG-2013-131
                                                                                                    Finding



needs and results in the potential development and deployment of new or improved
capabilities. Key performance parameters should be directly traceable to the most
critically needed attributes of capabilities defined in the Initial Capabilities Document or
other Joint Requirements Oversight Council validated documents.

Army Regulation 71-9, “Warfighting Capabilities Determination,” December 28, 2009,
implements the JCIDS within the Department of Army. The regulation establishes policies
and assigns responsibilities for the identification, determination, and integration of
required warfighting capabilities. The regulation states that a new materiel solution for
a capability gap will be developed only after all other solutions are deemed nonoptimal
for a required capability. The regulation further requires Capabilities Development
Documents (CDD) to contain sufficient key performance parameters to capture the
minimum operational effectiveness, suitability, and sustainment attributes needed to
achieve overall desired capabilities for the system.


Small Arms Capabilities Based Assessment Did Not
Identify the Need for a New Carbine
In April 2008, the U.S. Army Infantry Center issued the JCIDS CBA for Small Arms (SA)
weapons. The CBA identified SA capability gaps and provided analysis to support
revising SA requirements, to include the carbine.          The CBA evaluated the Joint
requirements of individual warfighters such as combat, combat support, and combat
service support personnel. It also evaluated small units that employ SA as a primary
means of accomplishing offensive and defensive missions, and established tasks,
conditions, and standards for SA weapons usage through FY 2015.


Small Arms Capabilities Based Assessment Methodology
The CBA included three analyses: functional area analysis, functional needs analysis,
and functional solution analysis. As a group, the analyses identified required
SA capabilities, including identifying the tasks, conditions, and standards related to
the execution of the required capabilities; and assessed whether the current and
programmed force could accomplish the tasks to standards or whether capability
gaps existed. The SA CBA then evaluated and recommended potential nonmateriel (for
example, doctrine, organization, training, leadership and education, personnel, and
facilities) and materiel approaches to close or mitigate the gaps determined to pose an
unacceptable risk to the force.




                                                                                           DODIG-2013-131 │ 7
Finding



                 The U.S. Army Infantry Center used a study team5 to conduct these analyses. As a part
                 of these analyses, the study team used previous analyses, operational test data,
                 validated and nonvalidated model results, data from recent operations, projected
                 threat weapons estimates, and subject matter experts. In addition, the study team
                 used professional military judgment to supplement quantitative data and analysis,
                 relied on subject matter experts to identify conditions and standards where none
                 were defined, and used warfighters to validate tasks, conditions, and standards.


                 Small Arms Capabilities Based Assessment Findings and
                 Recommendations
                 The study team determined there were significant SA gaps
                                                                                                                       The
                 in soldier and small-unit capabilities that needed to
                                                                                                                    CBA final
                 be addressed through a combination of materiel and                                             report stated that
                 nonmateriel solutions.                 In addition, the study team                           none of the solutions
                 concluded that there were no “silver bullet” solutions                                      for meeting small-unit
                                                                                                             effectiveness, lethality,
                 to any one gap and that some capability gaps required                                       and survivability start
                 additional analyses around which solution combinations                                           with replacing
                 could be built.              The study team also concluded that                                     the M4.
                 several materiel and nonmateriel solutions existed that
                 could significantly mitigate some of the gaps within the time frame
                 of the CBA. However, the CBA final report stated that none of the solutions for meeting
                 small-unit effectiveness, lethality, and survivability start with replacing the M4.


                 Army Inappropriately Approved and Validated the
                 Individual Carbine Capability Development Document
                 On August 9, 2010, the Army Deputy Chief of Staff, G-3/5/7, inappropriately approved
                 the IC CDD. The CDD identified the following five small arm CBA capability gaps to
                 justify the need to provide the warfighter with a compact weapon system that was
                 more reliable, easier to maintain, had a higher rate of fire, and was more accurate and
                 lethal, especially at extended ranges, than the M4.

                                •	 Current small arms experience too many malfunctions in harsh environments,

                                •	 Current small arms require too much maintenance, particularly in harsh
                                    environments, to operate reliably,

                 	 5	
                        The study team comprised requirements developers, research and analysis centers, product (and project) management
                        groups, warfighters, support contractors, and subject matter experts from the Army, Marine Corps, Air Force, and Special
                        Operations community.




8 │ DODIG-2013-131
                                                                                                                                       Finding



              •	 Warfighters lack the ability to achieve desired accuracy and incapacitating
                 effects against personnel from 0 to 500 meters,

              •	 Squads lack the ability to achieve desired accuracy and incapacitating effects
                 at ranges up to 600 meters, and

              •	 Small arms present visual and audible signatures that allow the threat to
                 localize U.S. forces too readily.

The Army identified four key performance parameters6 in
the IC CDD that the Army determined were essential                                                 The
to address those gaps. In accordance with U.S. Army                                          Army’s carbine
Requirements             Oversight        Council        direction,       the               requirement did
                                                                                         not involve fulfilling a
IC key performance parameters were baselined on the
                                                                                       capability, but was rather
current M4A1 capability. The M4A1 fulfills the Army’s                                     a legal requirement
IC threshold requirements. According to the Army                                          for additional units
Assistant Deputy Chief of Staff for Operations, G-3/5/7,                                       (quantity).
the Army’s carbine requirement did not involve fulfilling
a capability, but was rather a legal requirement for additional
units (quantity). The Army Assistant Deputy Chief of Staff for Operations, G-3/5/7,
further stated that the Army chose not to modify the existing M4A1 contract to fulfill
its need because the Secretary of Army directed an open competition for new carbine
buys beyond those immediately purchased for the war. The Army Assistant Deputy
Chief of Staff for Operations, G-3/5/7, further stated the Army was willing to invest
the $20 plus million in the competition for the confidence that no alternate design
was currently available with significantly improved performance over the M4A1.

Before any action is taken in the JCIDS process related to reviewing and validating
requirements documents, sponsors must first identify capability requirements related
to their assigned functions, roles, missions, and operations, and then determine if
there are any capability gaps which present an unacceptable level of risk and
warrant further JCIDS action. If the sponsor, in this case the Army, identifies capability
requirements that can be satisfied with current or projected capability solutions, then
no capability gap exists, and no JCIDS action is started. Therefore, the Army Deputy
Chief of Staff, G-3/5/7, should not have approved the IC CDD. When we raised this with
the Army Assistant Deputy Chief of Staff for Operations, G-3/5/7, he did not provide


	6	
      The IC program’s key performance parameters are: System Accuracy/Dispersion, System Reliability, Compatibility, and
      Operational Availability. The key performance parameters, along with the key system and performance attributes,
      define the minimum requirements for producing the increment of capability to meet the Warfighter’s needs as described
      in the CDD.




                                                                                                                              DODIG-2013-131 │ 9
Finding



                 us with an explanation for why the Army Deputy Chief of Staff, G-3/5/7, validated the
                 CDD for the IC as a new requirement and why it was used as the basis to initiate this
                 acquisition program when no capability gap existed.


                 Army Initiated Program To Acquire an Improved
                 Carbine That Was Not Needed
                 On October 2, 2008, the Secretary of the Army issued a memorandum to the Army
                 Acquisition Executive (AAE), the Assistant Secretary of the Army (Financial Management
                 and Comptroller), and Army Vice Chief of Staff, that endorsed the use of emerging
                 threat analysis to develop a new carbine requirement and directed them to initiate a
                 best value, full and open competition for carbines following the approval of a new
                 requirement. Specifically, the Secretary stated:

                            Given the Department’s significant interest in providing our Soldiers with
                            the best small arms weapons available, I direct you to take all necessary
                            actions to initiate a best value, Full and Open Competition for carbines
                            beginning no later than the end of Fiscal Year 2009.

                                             .     .      .     .      .     .     .

                            The Army Requirements Oversight Council directed that the Training
                            and Doctrine Command use the emerging threat analysis to develop a
                            new carbine requirement and have the document prepared and
                            submitted to Headquarters, Department of the Army by the end of 1st
                            quarter Fiscal Year 2009. I endorse this instruction and I further
                            direct that those efforts be focused and expedited to achieve a
                            new Joint Capabilities Integration and Development System
                            carbine requirement not later than the end of Fiscal Year 2009.
                            Following the approval of a new requirement, I direct a Full
                            and Open Competition for a carbine that addresses current and
                            emerging threats. [Emphasis added]


                 The Secretary of the Army’s direction was affirmed in Section 143, “Small Arms
                 Acquisition Strategy and Requirements Review,” of Public Law 110-417, “the Duncan
                 Hunter National Defense Authorization Act for 2009,” October 14, 2008. Specifically,
                 paragraph (b), “Competition for a New Individual Weapon,” states:

                            (1)	 COMPETITION REQUIRED.—If the small arms capabilities
                                 based assessments by the Army identifies gaps in small arms
                                 capabilities and the Secretary of the Army determines that a




10 │ DODIG-2013-131
                                                                                                                         Finding



                        new individual weapon is required to address such gaps, the
                        Secretary shall procure the new individual weapon using full
                        and open competition as described in paragraph (2).

                  (2)	 FULL AND OPEN COMPETITION.—The full and open competition
                       described in this paragraph is competition among all responsible
                       manufacturers that —

                        (A)	 Is open to all developmental                       item      solutions      and
                             non-developmental solutions; and

                        (B)	Provides for the award of a contract based on
                            selection criteria that reflects [sic] the key performance
                            parameters and attributes identified in a service
                            requirement document approved by the Army.
                            [Emphasis added]


Based on that direction, the AAE issued Memorandum, “Acquisition Decision
Memorandum for Individual Carbine (IC) Milestone (MS) B Approval,” April 7, 2011,
that provided the PEO Soldier approval to initiate the IC program at the Engineering
and Manufacturing Development phase of the acquisition process. The AAE also
authorized the PEO Soldier to expend the appropriate funding to execute the strategy
and release the final request for proposals to initiate and conduct the IC competition
under full and open competition procedures.


Army Organizations Recommend Suspending
the Individual Carbine Competition and Source
Selection Efforts
On January 5, 2012, the Commanding General, U.S. Army Maneuver Center of
Excellence,7 issued a memorandum recommending suspending the IC competition
efforts and source selection process.                         The Commanding General stated that the
ongoing M4 Carbine Product Improvement program would provide some of the
capabilities expected to be gained through the IC competition. Therefore, the Army’s
immediate need for the IC source selection efforts was not as great. The Commanding
General also stated that the Army should focus its limited funding on its highest
priority capability needs.




	 7	
       The U.S. Army Maneuver Center of Excellence is a part of the U.S. Army Training and Doctrine Command.




                                                                                                               DODIG-2013-131 │ 11
Finding



                 On January 27, 2012, the U.S. Army Requirements
                 Oversight Council met to discuss the way forward                    Canceling
                                                                                  the competition,
                 for the IC program.     In addition to the status quo
                                                                               ceasing the purchase
                 and   the    U.S.   Army     Training   and   Doctrine        of new weapons, and
                 Command’s recommendation above, the Headquarters               sustainment of the
                                                                              current inventory posed
                 Department of Army, G-4, who is responsible for
                                                                                no risk to the Army
                 sustainment of the logistics functional area and                   over the next
                 serves as the principal military advisor to the Assistant            10 years.
                 Secretary of the Army (Acquisition, Logistics and
                 Technology), determined that canceling the competition,
                 ceasing the purchase of new weapons, and sustainment of the current inventory
                 posed no risk to the Army over the next 10 years.

                 In addition, the Army Director of Capabilities Integration, Prioritization, and Analysis,
                 G-3/5/7, stated in a February 10, 2012, e-mail that the Army Chief of Staff agreed with
                 U.S. Army Training and Doctrine Command’s recommendation. Specifically, the Director
                 stated that the Army Chief of Staff:

                          •	 was confident with the current M4’s capabilities, in particular after all the
                             improvements done to date,

                          •	 concurred with U.S. Army Training and Doctrine Command that because of
                             current carbine capabilities, additional carbines are a low priority in the
                             Soldier portfolio,

                          •	 acknowledged the Army had sufficient carbines on hand to meet
                             Army requirements,

                          •	 acknowledged the risk that if a new carbine is chosen it would take two
                             decades to replace the current inventory at current funding levels of about
                             $80 million per year, and

                          •	 believed the current situation of lowered Army [force] structure creates
                             conditions to decide the carbine question.

                 The Director further stated that the Army Chief of Staff recommended that the
                 Secretary of the Army cancel the competition and cease purchasing new carbines,
                 retain IC requirement documents as a baseline for a future competition, sustain and
                 modernize its current M4 inventory, given budgetary priorities, and take a strategic
                 pause in procuring new carbines. In April 2012, the Secretary of the Army directed the
                 continuation of the IC competition.




12 │ DODIG-2013-131
                                                                                                     Finding



Early DoD IG Concerns Raised With Continuation of the
IC Competition
On December 28, 2012, we issued a quick reaction memorandum to the Assistant
Secretary of the Army (Acquisition, Logistics and Technology) that detailed our concerns
with IC product office officials obligating $420,000 to award contracts to initiate
Phase III of the IC source selection process. Specifically, we noted that the:

         •	 Army does not have a need for a new carbine,

         •	 2008 Small Arms CBA did not identify any capability gaps that required
            replacing the Army’s current carbine,

         •	 Army primarily based minimally acceptable values for IC’s key performance
            requirements, as identified in the approved CDD, on the capabilities of the
            M4 carbine, and

         •	 Army’s sole requirement was for additional carbines.

We also questioned whether the Army still needed
additional carbines.     According to Army officials,                Deputy Chief
changes to the Army force structure have reduced                   of Staff, G-3/5/7,
                                                                  officials concluded
the number of carbines required.         Deputy Chief
                                                                that there would be no
of Staff, G-3/5/7, officials concluded that there              readiness impact … if the
would be no readiness impact and minimal to                      Army canceled the IC
moderate industrial base impact if the Army                     competition and ceased
                                                                   purchasing new
canceled the IC competition and ceased purchasing
                                                                        carbines.
new carbines. Therefore, we suggested that the Assistant
Secretary of the Army (Acquisition, Logistics and Technology)
cancel the IC competition and avoid the unnecessary contract costs
associated with the award of three contracts at the end of Phase II of the IC program’s
source selection process. In the quick reaction memorandum, we estimated the total
cost of the program at $1.768 billion. Further analysis identified the Army’s Cost Position
for the IC program to be $2.529 billion. Table 1 identifies the Army’s Cost Position
contained in the approved Acquisition Program Baseline.




                                                                                           DODIG-2013-131 │ 13
Finding



                 Table 1. Individual Carbine Program Army Cost Position
                                             Objective    Threshold        ACP*
                         Appropriation                                                  Army Comments
                                                          (millions)
                             RDT&E              $18.0         $26.2          $18.0       Objective is ACP
                          Procurement         1,000.0       1,534.0        1,534.0      Threshold is ACP
                      Operations & Support      750.0         977.0          977.0      Threshold is ACP
                              Total          $1,768.0      $2,537.2       $2,529.0
                      *Army Cost Position


                 On March 29, 2013, the Assistant Secretary of the Army (Acquisition, Logistics and
                 Technology) responded to our memorandum. In the response, the Assistant Secretary
                 stated that the Army appreciated the opportunity to respond; however, while the
                 Army was assessing the DoD IG findings, the integrity and sensitive nature of the
                 IC source selection process did not allow the Army to address our findings in its
                 response.       The Assistant Secretary further stated that the Army would not award
                 Phase III contract(s) until it adequately addressed our findings. Appendix E contains
                 the quick reaction memorandum and response.


                 Conclusion
                 The Army Deputy Chief of Staff, G-3/5/7, did not justify the need for a new
                 carbine. Although the 2008 SA CBA concluded significant SA gaps existed in soldier
                 and small-unit capabilities that needed to be addressed, none of the solutions for
                 resolving the gaps required replacing the M4. Conversely, the CBA found there were
                 no “silver bullet” solutions to any one gap and that some capability gaps required
                 additional analyses around which solution combinations could be built.           The CBA
                 also concluded that several materiel and nonmateriel solutions existed that could
                 significantly mitigate some of the gaps within the time frame of the CBA.

                 In 2006, the Army position was that the introduction of a new carbine design without
                 significantly improved performance was unacceptable and that the Army did not have
                 a requirement for higher performance on which to base a competition. We found no
                 evidence to suggest that anything has changed since then. That the Army based the
                 threshold or minimum acceptable requirements for IC’s key performance parameters
                 on those of the M4A1 supports the conclusion that the Army still does not have a need
                 for a carbine with higher performance. Because the M4A1 is capable of satisfying the
                 Army’s IC threshold performance requirements, no capability gap existed that would
                 justify the Army Deputy Chief of Staff, G-3/5/7, approving the CCD used to establish
                 the IC program.


14 │ DODIG-2013-131
                                                                                                Finding



The Assistant Secretary of the Army (Acquisition, Logistics and Technology) should
terminate the IC competition and eliminate funding for the IC program; and the
Army Deputy Chief of Staff, G-3/5/7, should reassess whether additional M4A1 carbines
are needed. If the Army Deputy Chief of Staff, G-3/5/7, concludes that additional
M4A1 carbines are needed, the Assistant Secretary of the Army (Acquisition, Logistics
and Technology) should hold a competition to acquire them. If Army officials terminate
the IC program and conclude that they no longer need additional carbines, the
Assistant Secretary of the Army (Financial Management and Comptroller) could put
the $382 million allocated to the acquisition of carbines in the FY 2013 to FY 2018
Future Years Defense Program to higher Army priorities. Furthermore, the Army could
avoid incurring an additional $2.14 billion in the years beyond the current future
years defense program. See Appendix F for details on how potential monetary benefits
were calculated.


Recommendations, Management Comments, and
Our Response
We recommend that the:

      1.	   Assistant Secretary of the Army (Acquisition, Logistics and Technology)
            terminate the Individual Carbine competition and eliminate funding the
            Individual Carbine program.

Assistant Secretary of the Army (Acquisition, Logistics and
Technology) Comments
The Deputy for Acquisition and Systems Management, responding for the Assistant
Secretary of the Army (Acquisition, Logistics and Technology), did not state whether he
agreed or disagreed. The Deputy for Acquisition and Systems Management stated that
the Army concluded the IC competition on June 13, 2013, because no vendor successfully
met all the requirements prescribed by Phase II of the competition. He stated that the
remaining research and development funding was reprogrammed into other Operations
and Maintenance, Army programs. He also stated that the procurement funding in fiscal
years (FYs) 2015 through 2018 that was associated with the IC currently remains within
the carbine funding line, which originally supported procurement of both the M4A1 in
FY 2013 through 2014 and the winner of the IC competition in FYs 2014 through 2018.
The Deputy for Acquisition and Systems Management further stated that the Army is
currently reviewing the right mix of M4/M16 capabilities for the near and mid-term




                                                                                      DODIG-2013-131 │ 15
Finding



                 and once that decision is made, the Army will either execute the procurement funds in
                 the carbine line to procure additional M4A1s beyond FY 2014 or re-allocate funding
                 into other programs within the Army.


                 Our Response
                 Although the Deputy for Acquisition and Systems Management did not state whether he
                 agreed or disagreed, we consider the comments responsive, and the actions proposed
                 meet the intent of the recommendation. No further comments are required.

                       2.	 Army Deputy Chief of Staff, G-3/5/7, validate the quantity of
                            M4A1 carbines needed. If the Army Deputy Chief of Staff, G-3/5/7,
                            concludes that additional M4A1 carbines are needed, the Assistant
                            Secretary of the Army (Acquisition, Logistics and Technology) should
                            hold a competition to acquire them.

                 Army Deputy Chief of Staff, G-3/5/7, Comments
                 The Director, Capabilities Integration, Prioritization, and Analysis, responding for the
                 Army Deputy Chief of Staff, G-3/5/7, did not state whether he agreed or disagreed.
                 The Director, Capabilities Integration, Prioritization, and Analysis, stated that the Army
                 is currently reviewing the correct mix of M4/M16 capabilities for the near and
                 mid-term. He further stated that this review is in conjunction with the ongoing
                 Small Arms Weapons Strategy development and will include all components of the
                 force, including assessment and analysis of current individual weapons, optics, and
                 training to determine if additional capabilities in range and lethality are needed to
                 avoid overmatch by potential adversaries.


                 Our Response
                 Although the Director, Capabilities Integration, Prioritization, and Analysis did not state
                 whether he agreed or disagreed, we consider the comments responsive, and the actions
                 taken meet the intent of the recommendation. No further comments are required.

                       3.	 Assistant Secretary of the Army (Financial Management and
                            Comptroller) reprogram the $382 million in procurement and
                            research, development, test, and evaluation funding currently
                            allocated to acquire carbines across the FY 2013 to FY 2018 Future
                            Years Defense Program, adjusted by validated M4 carbines needed.




16 │ DODIG-2013-131
                                                                                             Finding



Assistant Secretary of the Army (Financial Management and
Comptroller) Comments
The Director of Investment, responding for the Assistant Secretary of the Army
(Financial Management and Comptroller), did not state whether he agreed or
disagreed. The Director stated that the Army canceled the IC procurement because
no vendor successfully met all the requirements. He stated that FY 2013 research and
development funding associated with the IC was reprogrammed into Operations
and Maintenance, Army Appropriation, and that FY 2014 research and development
and procurement IC funding has been zeroed out by the Senate Appropriations
Committee–Defense on August 1, 2013.            The Director further stated that the
IC procurement dollars in FYs 2015 through FY 2018 are under review and that
IC funding will be reallocated to other Army priorities.


Our Response
Although the Director of Investment did not state whether he agreed or disagreed,
we consider the comments responsive, and the actions taken meet the intent of the
recommendation.




                                                                                   DODIG-2013-131 │ 17
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from August 2012 through July 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence
                 to provide a reasonable basis for our findings and conclusions based on our audit
                 objectives. We believe that the evidence obtained provides a reasonable basis for our
                 findings and conclusions based on our audit objectives.

                 We interviewed key personnel and performed fieldwork at the following organizations:

                          •	 Individual Carbine Product Office (Picatinny Arsenal, New Jersey);

                          •	 Director, Operational Test and Evaluation (Arlington, Virginia);

                          •	 United States Army Maneuver Center of Excellence (Fort Benning, Georgia);

                          •	 Director, Capabilities Integration, Prioritization and Analysis, G-3/5/7
                                (Arlington, Virginia);

                          •	 Office of the Army Deputy Chief of Staff, G-8 (Arlington, Virginia); and

                          •	 Office of the Assistant Secretary of the Army for Acquisition, Logistics and
                                Technology (Arlington, Virginia).

                 We collected, reviewed, and analyzed documents dated from September 2002 through
                 March 2013.        Key documents reviewed related to requirements determination of
                 the IC program included the SA CBA and the CDD. Documents reviewed that related to
                 the acquisition strategy included the Acquisition Strategy/Plan, Acquisition Program
                 Baseline, Source Selection Reports, and Army and Congressional memorandums
                 and letters.

                 Among numerous guidance and policy documents reviewed, the following DoD and
                 Army issuances were key in determining whether the Army had a valid requirement for
                 a new IC and had an effective acquisition strategy in conducting the IC competition:

                          •	 Defense Acquisition Guidebook;

                          •	 Chairman of the Joint Chiefs of Staff Instruction 3170.01G, “Joint Capability
                                Integration and Development System,” March 1, 2009;




18 │ DODIG-2013-131
                                                                                               Appendixes



        •	 Chairman of the Joint Chiefs of Staff Instruction 3170.01H, “Joint Capability
           Integration and Development System,” January 10, 2012;

        •	 Army     Regulation    71-9,   “Warfighting       Capabilities   Determination,”
           December 28, 2009;

        •	 JCIDS Manual, “Manual for the Operation of the Joint Capabilities Integration
           and Development System,” February 2009 (Updated January 31, 2010); and

        •	 JCIDS Manual, “Manual for the Operation of the Joint Capabilities Integration
           and Development System,” January 19, 2012.


Use of Computer-Processed Data
We did not rely on computer-processed data to perform this audit.


Use of Technical Assistance
We did not use Technical Assistance to perform this audit.


Prior Coverage on Individual Carbine
During the last 10 years, the Department of Defense, Office of the Inspector General
(DoD IG), has issued one report related to the Individual Carbine Program.             The
Army Audit Agency and GAO have not issued any reports related to the Individual
Carbine over the last 10 years.     Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.


DoD IG
Report No. D-2007-026, “Competition of the 5.56-Millimeter Carbine,” November 22, 2006.
http://www.dodig.mil/audit/reports.




                                                                                          DODIG-2013-131 │ 19
Appendixes




Appendix B
M16 Rifle and M4 Carbine Family of Weapons
The following figure shows the M16 rifle and M4 carbine family of weapons.




20 │ DODIG-2013-131
                                                                                      Appendixes



The following figure shows the improvements made to the M4 carbine since 1990.




                                                                                 DODIG-2013-131 │ 21
Appendixes




Appendix C
Timeline of Key Events
                   12-Jun-06                                                                                                                 7-Apr-11
The Army Deputy Chief of Staff, G-3/5/7                                                                                 The former Army Acquisition Executive issued          29-Jun-11
issued a memo to the Assistant Secretary                                                                                an Acquisition Decision Memorandum approving        IC Request for
of the Army (Acquisition, Logistics and                                                                                 the IC’s entry into MS B, the Engineering and       Proposal.
Technology) stating that the Army's                                                                                     Manufacturing phase. This authorized the IC
introduction of a new carbine design without         2-Apr-08                                                           program to expend the appropriate funding to
significantly improved performance was         SA CBA released. CBA                                                     conduct the IC competition under full and open
unacceptable and that the Army did not have    concluded that capability                                                competition procedures.
a requirement for higher performance on        gaps did exist, but that the
which to base a competition.                   solution did not involve a                                                                                                             Apr-12
                                               new carbine.                                                                                                                     SecArmy directed
                                                                                       2-Oct-08                                                                                 continuation of IC
                                                                              Former SecArmy endorsed a                                  10-Dec-10                                                                            Sep-13
                                                                                                                                                                                competition.                            IC Competition
                                                                              new Carbine Requirement.                               AoA Waiver approved.
                                                                                                                                                                                                                        Final Downselect
                                                                                                                                                                                                                        Decision.



                                                                                                            Dec-08 - Aug-10                                              Nov-11 - Jan-12     May-12 - Dec-12     Jan-13 - Sep-13
                                                                                                 Requirements Document Staffed/Approved                                     Phase I             Phase II            Phase III

                                     Jan-07                  Jan-08                        Jan-09                    Jan-10                      Jan-11                     Jan-12                      Jan-13

               Apr-06                                                                                                                                                                                                              Dec-13
                                                Aug-07 - Nov-07
                                               Extreme Dust Test
                                               Conducted.
                                                                       Jan-08                                              9-Aug-10                                      5-Jan-12
                                                      Extreme Dust Test Report Released.                        IC CDD Approved. The Key                    Memo from U.S. Army Maneuver
                                                      Although the differences between the                      Performance Parameters                      Center of Excellence recommended
                                                      results of the four weapons tested was                    threshold values were based on              to suspend IC competition.
                                                      minimal, the M4 came in last.                             the M4 capabilities.




22 │ DODIG-2013-131
                                                                                           Appendixes




Appendix D
Chronology, Key Events, and Activities
June 12, 2006.      Issuing a memorandum to the Assistant Secretary of the Army
(Acquisition, Logistics and Technology), the Army Deputy Chief of Staff, G-3/5/7,
stated that the introduction of a new carbine design without significantly improved
performance was unacceptable and that the Army did not have a requirement for higher
performance on which to base a competition.

August 2007 – November 2007. Extreme dust test conducted.

January 2008. Extreme dust test final report issued. The report showed that the
M4 experienced more failures than the other weapons tested. The report did not provide
any conclusions on what was an acceptable failure rate, identify causes for failures of
any weapon, or provide any recommendations for improvement.

April 2, 2008. CBA Final Report does not recommend new materiel solution.

October 2, 2008. The Secretary of the Army issued a memorandum directing the
Army Acquisition Executive (AAE), the Assistant Secretary of the Army (Financial
Management and Comptroller), and Vice Chief of Staff to initiate a best value, full and
open competition for carbines following the approval of a new IC requirement.

August 9, 2010. IC CDD was approved. The IC CDD threshold requirements were
primarily based on the capabilities of the current carbine system (the M4).

December 10, 2010. The AAE approved the waiver of the regulatory requirement for an
analysis of alternatives for the IC program.

April 7, 2011.     The AAE issued Acquisition Decision Memorandum providing the
IC program entry into the Engineering and Manufacturing Development phase in the
defense acquisition system. In the Acquisition Decision Memorandum, the AAE stated
that the IC Engineering and Manufacturing Development phase was fully funded with
RDT&E and procurement funding available in the Program Objective Memorandum under
the M4 funding.

June 29, 2011. Individual Carbine Request for Proposal issued.




                                                                                      DODIG-2013-131 │ 23
Appendixes



                 January 5, 2012. The Commanding General, U.S. Army Maneuver Center of Excellence,
                 issued a memorandum recommending the IC competition efforts and source selection
                 process be suspended.

                 April 2012. The Secretary of the Army directed the continuation of the IC competition.

                 September 2013. The IC competition final down-select is scheduled to occur.




24 │ DODIG-2013-131
                                              Appendixes




Appendix E
Quick Reaction Memorandum and Response




                                         DODIG-2013-131 │ 25
Appendixes



                 Quick Reaction Memorandum and Response (cont’d)




26 │ DODIG-2013-131
                                                       Appendixes



Quick Reaction Memorandum and Response (cont’d)




                                                  DODIG-2013-131 │ 27
Appendixes



                 Quick Reaction Memorandum and Response (cont’d)




28 │ DODIG-2013-131
                                                       Appendixes



Quick Reaction Memorandum and Response (cont’d)




                                                  DODIG-2013-131 │ 29
Appendixes



                 Quick Reaction Memorandum and Response (cont’d)




30 │ DODIG-2013-131
                                                       Appendixes



Quick Reaction Memorandum and Response (cont’d)




                                                  DODIG-2013-131 │ 31
Appendixes




                 Appendix F
                 Summary of Potential Monetary Benefits
                 Potential monetary benefits are calculated using Future Years Defense Program (FYDP)
                 2013-2018 data, as shown in Table F-1. The actual benefits achieved could range
                 anywhere from zero to $382 million, depending on the extent of actions taken in response
                 to the report recommendations, such as termination of the IC program, elimination of
                 the IC program funding, and validating the quantity of carbines the Army needs.

                 Table F-1. Potential FYDP 2013-2018 Monetary Benefits Associated With Actions Taken in
                 Response to Recommendations for the Carbine Program
                                           Potential Monetary Benefits FY 2013 – FY 2018
                                                                          Amount of                      Account
                      Recommendation           Type of Benefit              Benefit
                                                                           (millions)      Fiscal Year      Appropriation
                                                                              $7.2              2013       RDT&E
                                                                              21.3              2013       Procurement
                                                                              70.8              2014       Procurement
                                                   Funds Put to
                        1, 2, and 3                                           70.9              2015       Procurement
                                                    Better Use
                                                                              71.0              2016       Procurement
                                                                              70.9              2017       Procurement
                                                                              70.0              2018       Procurement
                                                                  Total     $382.0


                 Further, up to an additional $2.14 billion in potential cost avoidance associated with the
                 extent of actions taken in response to report recommendations, which is not incorporated
                 in the FYDP for the years beyond 2018, is calculated in Table F-2. Any reduction in the
                 procurement quantity will have an effect on Operations and Support amounts baselined
                 in the original APB.

                 Table F-2. Potential Monetary Benefits Associated With Actions Taken in Response to
                 Recommendations for the Carbine Program in Years Beyond the Current FYDP
                                                         Potential Cost Avoidance
                                              Appropriation                  Amount (millions)
                                        Procurement                               $1,159.1
                                        Operation and Support                           977.0
                                           Total                                  $2,136.1




32 │ DODIG-2013-131
                                               Management Comments




Management Comments
Assistant Secretary of the Army (Financial Management
and Comptroller) Comments




                                                     DODIG-2013-131 │ 33
Management Comments



                 Assistant Secretary of the Army (Acquisition, Logistics
                 and Technology) Comments




34 │ DODIG-2013-131
                                                Management Comments



Army Deputy Chief of Staff, G-3/5/7, Comments




                                                      DODIG-2013-131 │ 35
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                       AAE Army Acquisition Executive
                       CBA Capabilities Based Assessment
                       CDD Capability Development Document
                         IC Individual Carbine
                      JCIDS Joint Capabilities Integration and Development System
                       PEO Program Executive Office
                        SA Small Arms




36 │ DODIG-2013-131
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
